No. __________

IN THE SUPREME COURT OF THE UNITED STATES
CHRISTOPHER EMORY CRAMER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
I, Sean J. Bolser, certify that on this 14th day of October 2021, as required by
Supreme Court Rule 29, the original and ten (10) copies of Petitioner’s Application
for Leave to Proceed in Forma Pauperis and his Petition for Writ of Certiorari with
accompanying Appendices were sent by prepaid Federal Express courier for overnight
delivery to:
Office of the Clerk
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
I further certify that on the same date, one copy of the document was served
electronically upon counsel for the Government and sent by prepaid Federal Express
courier for overnight delivery to counsel for the Government, at the addresses listed
below.

Brian H. Fletcher
Acting Solicitor General
Office of the Solicitor General
U.S. Department of Justice
Washington, D.C. 20530-0001
(202) 514-2203
SupremeCtBriefs@usdoj.gov
Nicholas J. Ganjei
Acting U.S. Attorney
Bradley Elliot Visosky
Assistant U.S. Attorney
Eastern District of Texas
Suite 500
101 E. Park Boulevard
Plano, TX 75074
(972) 509-1217
bradley.visosky@usdoj.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 14, 2021
s/ Sean J. Bolser
Sean J. Bolser, Esq.
Counsel of Record
Federal Public Defender's Office
Eastern District of New York
16th Floor
1 Pierrepont Plaza
Brooklyn, NY 11201
Tel. (718) 407-7406
Sean_Bolser@fd.org

